CERTIFICATE OF SERVICE

I, Sarah Roberts, hereby certify that one copy of the foregoing
motion to extend time to file a response to the Petition for Writ of
Certiorari in Solomon McLemore v. City of Shoreline, was sent via
Three Day Service to the U.S. Supreme Court, and one copy was
sent Three Day Service and email to the following parties listed
below, this 17" day of September, 2019.

David C. Tannotti

Stewart MacNichols Harmell, Inc. P.S.
655 West Smith Street, Suite 210
Kent, WA 98032

(253) 859-8840

david@sbmhlaw.com

Counsel for Petitioner
All parties required to be served have been served.

I further declare under penalty of perjury that the foregoing is
true and correct. This Certificate is executed on September 17",
2019.

Lyn) In. Kbps

Sarah M. Roberts

Shoreline Prosecuting Attorney
17553 15" Ave. NE.

Shoreline, WA 98155

(206) 364-2965
